      NEW APPROACHES NEEDED
IN MANAGING PHMSA’S SPECIAL PERMITS
      AND APPROVALS PROGRAM

Pipeline and Hazardous Materials Safety Administration

            Report Number: AV-2010-045
             Date Issued: March 4, 2010
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: New Approaches Needed in Managing                                     Date:    March 4, 2010
           PHMSA’s Special Permits and Approvals Program
           Pipeline and Hazardous Materials Safety
           Administration
           Report Number AV-2010-045

  From:    Lou E. Dixon                                                               Reply to
                                                                                      Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Pipeline and Hazardous Materials Safety Administrator

           This report presents the results of our review of the Pipeline and Hazardous Materials
           Safety Administration’s (PHMSA) Special Permits and Approvals Program. PHMSA
           is the lead agency responsible for regulating the safe transport of hazardous materials,
           including explosive, poisonous, corrosive, flammable, and radioactive substances.
           PHMSA regulates up to 1 million daily movements of hazardous materials. Many
           hazardous materials are transported under the terms and conditions of special permits
           and approvals, which provide relief or exceptions to the Hazardous Materials
           Regulations. 1

           On September 10, 2009, we testified before the House Committee on Transportation
           and Infrastructure regarding our review of PHMSA’s Special Permits and Approvals
           Program. 2 Our review disclosed serious deficiencies in how PHMSA processes and
           oversees special permits and approvals. This report summarizes the results of our
           review and transmits our recommendations to strengthen the Special Permits and
           Approvals Program by addressing the issues we presented in our testimony. A copy
           of our hearing statement is attached for your information. Our audit objectives were
           to evaluate the effectiveness of PHMSA’s (1) policies and processes for reviewing
           and authorizing special permits and approvals, (2) coordination with the affected



           1
               Hazardous Materials Regulations, 49 C.F.R. § 171-180 (2009).
           2
               OIG Testimony Number CC-2009-096, “PHMSA’s Process for Granting Special Permits and Approvals for Transporting
               Hazardous Materials Raises Safety Concerns,” September 10, 2009. OIG reports and testimonies are available on our
               website: www.oig.dot.gov.
                                                                                                                            2


Operating Administration 3 before issuing any of these special authorizations, and
(3) oversight and enforcement of approved parties’ compliance with the terms and
conditions of these authorizations. We conducted the audit from July 2008 through
January 2010 in accordance with government auditing standards prescribed by the
Comptroller General of the United States. Our objectives, scope, and methodology
are detailed in the exhibit to this report.

IN SUMMARY
Our review identified safety issues that call into question the effectiveness of
PHMSA’s process for granting special permits and approvals for transporting
hazardous materials.       Specifically, PHMSA does not (1) adequately review
applicants’ safety histories, (2) ensure applicants will provide an acceptable level of
safety, (3) coordinate with the affected Operating Administrations, and (4) conduct
regular compliance reviews of individuals and companies that have been granted
special permits and approvals. To alert PHMSA to our safety concerns with transport
of specialized bulk explosives, we also reported these issues in a July 2009
management advisory. We note that PHMSA has developed action plans to address
concerns we have raised about its Special Permits and Approvals Program. We will
be monitoring the actions taken to ensure that each problem we raised is addressed.
Our findings are summarized below:

    • PHMSA does not look at applicants’ safety history when assessing their fitness for
      a special permit or approval. For all of the 99 permits and 56 approvals we
      examined, PHMSA did not consider the applicants’ incident and compliance
      records when granting, renewing, 4 or allowing “party-to” 5 permits. We found this
      to be the case even when applicants had multiple incidents and enforcement
      violations for years prior to receiving their permit. Of particular concern is
      PHMSA’s practice of granting special permits to trade associations—effectively
      giving a “blanket authorization” to thousands of member companies without any
      assessment of their safety histories or need for the permit.

    • PHMSA has granted special permits and approvals without sufficient data or
      analyses to confirm that applicants’ proposed level of safety is at least equal to
      what is called for in the Hazardous Materials Regulations. PHMSA’s reviews of
      65 percent of the 99 permits and all 56 approvals we examined were either
      incomplete, lacked evidence of an equal level of safety, or simply nonexistent.
      PHMSA also lacks sufficient supporting documentation for renewal and party-to

3
    The Federal Aviation Administration, Federal Motor Carrier Safety Administration, and Federal Railroad Administration
    are responsible for inspection and enforcement of hazardous materials regulations for their respective industries involved
    in transporting hazardous materials in commerce.
4
    A renewal is a request to extend the permit. Renewals can be valid for up to 4 years.
5
    A “party-to” is a request to “piggy-back” on a new or existing permit.
                                                                                                                            3


      permits, which are based on evaluations PHMSA may have performed several
      years earlier when assessing the original (new) special permit application.

    • PHMSA did not coordinate with the Federal Aviation Administration, Federal
      Railroad Administration, or Federal Motor Carrier Safety Administration on
      90 percent of the new and party-to permits or any of the renewals we reviewed,
      although these agencies may have critical safety data on applicants seeking a
      permit. Further, PHMSA did not coordinate most of the emergency permits we
      reviewed—even though the law specifically requires their coordination.

    • PHMSA’s risk-based oversight program omits a key rating factor that should drive
      compliance reviews—that is, whether a company holds a special permit or
      approval. However, our visits to 27 companies found that more than half did not
      comply with the terms of their permits. Some officials did not know which
      permits applied to their location, and some were unaware that they even had a
      permit to abide by.

PHMSA’s planned actions address our concerns with the process and procedures used
to manage the special permit program; the criteria used to assess an equivalent level
of safety; 6 the process for evaluating the fitness of applicants and their safety
performance; increased compliance audits and oversight of special permit holders;
enhanced accountability of those operating under the terms of special permits; and the
need to modernize the information technology system that supports the program.
PHMSA has already completed several of its action plan items, including:

    • Developing and publishing written policy to clarify that special permits are issued
      to member companies only, not to the association or organization.
    • Revising policy and procedures to ensure that an “equivalent level of safety”
      determination is met and fully supported with safety documentation evaluations.
    • Revising policy and procedures to ensure that applicant fitness determinations are
      well-founded and fully supported.
    • Developing formal standard operating policies and procedures for the special
      permits program.

While these actions and the remaining ones will require sustained management
attention to fully analyze and resolve concerns with the special permit process,
PHMSA must also focus attention on its approval process. Our work found that many
of the weaknesses in the special permit process are also evident in PHMSA’s approval
process. Specifically, PHMSA did not document applicants’ proposed level of safety
for all 56 approvals we reviewed and had granted 5 approvals to applicants with prior

6
    The proposed alternative will achieve a level of safety that is at least equal to what is called for in the regulation from
    which the special permit is sought.
                                                                                       4


safety incidents and regulatory violations—ranging from a company with 6 incidents
and 1 violation to a company with 178 incidents and 23 violations. In October 2009,
PHMSA developed and began implementing an action plan to enhance safety
oversight of the approvals program. However, a number of longer term actions
remain. These include developing a system to notify PHMSA and other relevant
Operating Administrations of safety concerns and incidents and developing a pilot
project for installing Electronic Stability Control systems on special use (bulk
explosives) vehicles to prevent rollovers.

PHMSA should make it a top management priority to execute the action plans to
improve both its special permit and approval processes. As PHMSA reexamines these
processes, it must consider the age and number of special permits. We believe
PHMSA would benefit from reviewing special permits that are more than 10 years old
to determine if any can be included in the Hazardous Material Regulations. Based on
our review of 39 renewal and 21 “party-to” special permits, we found that 60 percent
were more than 10 years old and 33 percent were more than 20 years old. Also, the
sheer number of active special permits—over 5,000—underscores the need to
reexamine the strategy for adopting special permits into the Hazardous Materials
Regulations to keep the current regulatory framework in sync with today’s operating
environment.

CONCLUSION
Regulating and monitoring the movement of hazardous materials is a critical part of
ensuring the safety of the Nation’s transportation system, and it is PHMSA’s role to
properly assess all risks before allowing applicants to participate in commerce under
special permits and approvals.          While PHMSA’s action plans and senior
management’s attention show promise, it will take time, resources, and sustained
commitment to address longstanding and emerging issues. As PHMSA addresses
these areas, it must refocus its approach to proactively identify safety risks, work with
partner safety agencies to resolve safety and practicality matters, and set targeted
oversight priorities.

RECOMMENDATIONS
Based on the results of our review, we are making a series of recommendations to the
PHMSA Administrator that PHMSA should take now to strengthen its policies,
procedures, and management oversight to ensure that the Special Permits and
Approvals Program is operating efficiently. We recommend that PHMSA:
                                                                                     5


1. Finalize and fully implement the action plans to improve the effectiveness of
   processing special permits and approvals.

2. Finalize and fully implement formal standard operating procedures and policies
   for special permit and approval processes (i.e., application, evaluation,
   authorization; agency coordination; and oversight).

3. Establish priorities for implementing each of the initiatives in the action plans as
   well as a process to measure the effectiveness of each initiative and revise or
   update initiatives as necessary.

4. Resolve the issue of company fitness and level of safety for existing special
   permits issued to trade associations representing over 5,000 companies by
   requiring these companies to reapply under the new policy guidelines that require
   evaluating a company’s fitness and level of safety.

5. Develop a precise definition of what constitutes an applicant’s “fitness” to conduct
   the activity authorized by the special permit or approval. This definition should
   include reviewing an applicant’s safety history—incidents and enforcement
   actions—prior to granting a special permit or approval.

6. Require the Office of Hazardous Materials Technology to conduct and prepare
   complete evaluations that document the level of safety the company or individual
   is proposing is as safe as or safer than requirements from which the company is
   seeking relief.

7. Establish a partner safety interagency working group to develop a uniform process
   for coordinating special permits, including new, renewal, “party-to,” and
   emergency permits as well as new and renewed approvals.

8. Include “holders of special permits and approvals” as a priority factor in
   PHMSA’s risk-based oversight approach in targeting companies for compliance
   reviews.

9. Establish timeframes for resolving and implementing long-standing safety
   concerns and periodically measure performance against the timeframes.

10. Establish a National Task Force to develop standard procedures for facilitating the
    adoption of special permits and approvals into the Hazardous Materials
    Regulations in order to keep the current regulatory framework in sync with
    advanced technologies and business practices.
                                                                                      6


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided PHMSA with our draft report on February 2, 2010, and received its
formal response on February 25, 2010.             PHMSA concurred with our first
9 recommendations and partially concurred with our 10th recommendation.
Specifically, PHMSA agreed with the necessity for a regulatory framework that
accommodates advanced technologies and business practices and spelled out the steps
it is taking to accomplish this internally through a special team assigned to review all
currently active special permits and identify those that should be incorporated into the
Hazardous Materials Regulations. PHMSA’s response is included in its entirety in
the appendix to this report.

PHMSA’s target completion dates and actions taken or planned for all
10 recommendations are reasonable, and we consider them addressed and subject to
follow up under Department of Transportation Order 8000.1C. We appreciate the
courtesies and cooperation of PHMSA representatives during this audit. If you have
any questions concerning this report, please contact me at (202) 366-0500 or Scott
Macey, Program Director, at (415) 744-0434.

Attachment

                                           #

cc: Deputy Secretary
    John Hess, PHA-30
    Martin Gertel, M-1
                                                                                    7




EXHIBIT. OBJECTIVES, SCOPE, AND METHODOLOGY
Our audit objectives were to assess the effectiveness of (1) PHMSA’s policies and
processes for reviewing and authorizing Special Permits and Approvals; (2)
PHMSA’s coordination with the affected Operating Administration before issuing any
of these special authorizations; and (3) PHMSA, Federal Aviation Administration
(FAA), Federal Motor Carrier Safety Administration (FMCSA), and Federal Railroad
Administration (FRA) oversight and enforcement of approved parties’ compliance
with the terms and conditions of these authorizations.

We conducted this performance audit from July 2008 to January 2010 in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our audit work began in July 2008 at PHMSA, FAA, FMCSA, and FRA headquarters
offices. For the period January 2004 to August 2008, we statistically sampled 62 new
special permit applications, 60 special permit “renewals” and “party to” applications,
and 68 approval applications and assessed PHMSA’s policies and processes for
reviewing, coordinating, and authorizing approvals. See the table below for a
breakdown of samples.

                 Table. Special Permits and Approval Samples
      Type of       Sample        Non-         Emergency                Denied
   Application         Size    Emergency Granted/Reviewed
                                Reviewed
 Special Permits
   New                  62         40               16                     6
   Renewal/PTE        39/21       38/21             0                     1/0
  Permits Total        122         99               16                     7

 Approvals Total        68           56                  0                12

We reviewed the various special permit and approval samples to determine if PHMSA
adhered to its policies and procedures. Specifically, we examined applications to
determine whether PHMSA required applicants to adhere to regulatory requirements.

We also assessed whether PHMSA coordinated with the modal administrations;
showed evidence of completing evaluation forms; and considered applicants’ fitness




Exhibit. Objecti ves, Scope, and Methodology
                                                                                    8


to conduct the authorized activity and proposed level of safety to ensure it met or
exceeded the safety requirements from which the applicant was seeking relief.

During December 2008 and July 2009, we conducted 27 unannounced site visits to
high-risk companies that included explosive manufacturers, chemical manufacturing
plants, cylinder retesters, and other holders of special permits. The site visits were
conducted to determine if PHMSA was carrying out its roles and responsibilities and
if the companies were in compliance with the terms and conditions outlined in the
special permits (i.e., special provisions, safety control measures, certificates of
registration, security plan, shipping papers, and training requirements).

In June and July of 2009, we conducted 18 unannounced site visits to members of
local trade associations in Washington, DC, Maryland, and California to determine if:
(1) special permits applied to the respective sites and (2) the companies were in
compliance with the terms and conditions outlined in the special permits.

We met with key PHMSA officials responsible for processing, reviewing, and
evaluating the Special Permits and Approvals Program. We also reviewed Office of
Hazardous Materials Safety special permits and approvals databases to review and
analyze data in support of the review.

We met with industry associations such as International Air Transport Association,
Air Transport Association, American Trucking Association, Association of American
Railroads, and Air Line Pilots Association to obtain their views of PHMSA’s Special
Permit and Approvals Program.

On July 28, 2009, we issued a management advisory on bulk explosive trucks and
other issues that arose during our review. On July 30, 2009, we briefed the Acting
Deputy Administrator for PHMSA and her staff on the status of the review. In
response, PHMSA briefed the Inspector General and the Deputy Secretary on the plan
of action developed to address our management advisory.

We also interviewed FAA, FRA, and FMCSA officials regarding their coordination
with PHMSA when special permits and approvals are issued.




Exhibit. Objecti ves, Scope, and Methodology
                                                                                            9



APPENDIX. AGENCY COMMENTS


U.S. Department                          Administrator        1200 New Jersey Avenue, SE.
of Transportation                                             Washington, DC 20590
Pipeline and Hazardous Materials
Safety Administration

                                   February 25, 2010



INFORMATION MEMORANDUM TO THE ASSISTANT INSPECTOR
GENERAL FOR AVIATION AND SPECIAL PROGRAM AUDITS

From:        Cynthia L. Quarterman
             x6-4433

Prepared by: Cindy Douglass
             Assistant Administrator/Chief Safety Officer
             x6-4461

Subject:     Response to Draft Report on PHMSA’s Special Permits
             and Approvals Program


SUMMARY

The Pipeline and Hazardous Materials Safety Administration (PHMSA) has taken
swift and comprehensive action to ensure that the process for issuing special permits
and approvals for the transportation of hazardous materials functions effectively to
protect public safety. PHMSA has fully addressed all specific issues identified in the
DOT Office of Inspector General (OIG) review of the Office of Hazardous Materials
Safety (OHMS) Special Permits and Approvals Program. PHMSA conducted a top-
to-bottom review of its policies, procedures, practices, and staffing, and implemented
action plans with aggressive timeframes that have already significantly improved
oversight and accountability. We are dedicated to ensuring that operations authorized
by special permits and approvals meet the same high safety standard provided by the
Hazardous Materials Regulations (HMR).

PHMSA has committed to and is executing the following three action plans:




Appendix. Agency Comments
                                                                                      10


       • Action Plan for Special Permits Program; 1
       • Action Plan for IT Modernization and Data Collection/Analysis; and
       • Action Plan for Approvals Program. 2

The Agency has completed the tasks within each of these plans on schedule and is on
target to fulfill each action plan. The action plans are “living” documents that will be
continuously reviewed to improve processes and regulations relating to special
permits and approvals and ensure they are up-to-date. PHMSA is committing
significant new budget and staffing resources to this effort and will continue to do so
as it works with its partners within DOT and the U.S Coast Guard to manage the
program. Our commitment to ensure the effectiveness of these vital programs
includes PHMSA’s leadership and management team, the leadership of our partner
agencies in DOT, as well as the Secretary and the Deputy Secretary.

PHMSA’s actions, in total, systematically address each of the issues identified in the
OIG report, and offer decisive actions with regard to strengthening the special permits
and approvals programs. As conveyed in the following responses to OIG’s specific
recommendations, PHMSA has already completed action pursuant to several of the
recommendations, with remaining actions well underway.

PHMSA ACTIONS TO ADDRESS RECOMMENDATIONS

1.          Finalize and fully implement the action plans to improve the effectiveness
            of processing special permits and approvals.

PHMSA Response

Concur. On August 6, 2009, PHMSA finalized and began implementation of an
accelerated and comprehensive action plan to improve its management of the special
permits program. One main focus of the action plan is to ensure that the program
functions as intended to provide a level of safety for transportation of hazardous
materials authorized under special permits that is equivalent to the HMR. The action
plan takes into account existing personnel, budget and information technology. It
addresses: (1) the process and procedures used to manage the program; (2) the
criteria used to assess and document an equivalent level of safety; (3) the process for
evaluating the fitness of applicants and their safety performance; (4) the need for
increased compliance audits and oversight of special permit holders; (5) the
requirement of enhanced accountability of those operating under the terms of special
permits; and (6) the need to modernize the information technology (IT) system that
supports the program. All of the initiatives with specific deadlines are complete. For

1
    Link to Action Plan for Special Permits
2
    Link to Action Plan for Approvals Program


Appendix. Agency Comments
                                                                                       11


example, PHMSA has completed the following action items to enhance its oversight
of the special permits program:
    • Published a written policy on special permits issued to members of industry
        trade associations or similar industry organizations to clarify that special
        permits are issued to member companies only, not to the association or
        organization.
    • Reviewed and revised the criteria, policy, and procedures used to make the
        statutorily mandated “equivalent level of safety” determination that must be
        met for the issuance of a special permit to ensure that the standard is met and
        supported with appropriate documentation.
    • Reviewed and revised the policy and procedures for determining the fitness of
        special permit applicants, including the criteria considered in determining
        “fitness” (such as past safety record, previous incidents and violations, staffing
        and resources, and carrier safety rating if applicable) and the process and
        criteria for initiating on-site fitness reviews to ensure that fitness
        determinations are well-founded and supported with appropriate
        documentation.
    • Revised procedures for coordinating the issuance of special permits with FAA,
        FRA, FMCSA, and the USCG, including methods to evaluate the fitness of
        applicants to conduct the activities authorized by the special permit.
    • Developed a plan to provide enhanced enforcement of the terms of special
        permits, taking advantage of the resources of all the operating administrations
        with responsibility for enforcing HMR.
    • Developed a plan for enhancing the availability of data needed to provide the
        necessary oversight to ensure that holders of special permits are operating
        safely and within the conditions established in the special permits.
    • Revised the standard operating procedures governing the entire special permits
        program, including procedures for evaluating applications, determining a level
        of safety equivalent to the regulations, and monitoring activities conducted
        under the special permits.

PHMSA completed a similar comprehensive review of its policies and processes for
issuing approvals on November 6, 2009, and finalized an action plan to improve
management and oversight of the approvals program on December 4, 2009. PHMSA
has met all the deliverables to date and is on target to meet all planned deliverables in
the approvals action plan. With the action plans finalized, and comprehensive actions
underway to complete implementation, we consider the intent of this recommendation
to be fulfilled.




Appendix. Agency Comments
                                                                                     12


2.     Finalize and fully implement formal standard operating procedures and
       policies for special permit and approval processes (i.e., application,
       evaluation, authorization, agency coordination, and oversight).

PHMSA Response

Concur. PHMSA completed and implemented standard operating procedures (SOPs)
for the special permits program on October 5, 2009. The SOPs incorporate a number
of program enhancements, including standardized documentation and retention
requirements for applications, safety assessments, fitness evaluations, internal and
intermodal coordination records, and all relevant background, data and analysis.
Further, the SOPs incorporate a rigorous process for determining if a special permit
will achieve an equivalent level of safety as provided by the HMR and a
comprehensive review and inspection procedure for making determinations as to the
fitness of special permit applicants, including specific processes and metrics for
defining and evaluating fitness.

Pursuant to its Approvals Action Plan, PHMSA is in the process of developing similar
SOPs for the approvals program. PHMSA has already finalized and implemented a
number of enhanced procedures for the approvals program, including procedures for
safety assessment, fitness evaluations, and internal and intermodal coordination. The
Agency is on target to complete and fully implement all SOPs for the approvals
program by March 4, 2010.


3.     Establish priorities for implementing each of the initiatives in the action
       plans as well as a process to measure the effectiveness of each initiative
       and revise or update initiatives as necessary.

PHMSA Response

Concur. The initiatives in the action plans are listed according to a combination of
criteria based on due dates, timeframes for completion, logical order for progression
and their anticipated safety impact, overall urgency, staffing and budget resources.
Thus, for each program, the first priority initiative was to complete a broad-based,
top-to-bottom review covering current operating procedures, staff responsibilities,
documentation of procedures, criteria for equivalent level safety assessments, fitness
review criteria and processes, and coordination with DOT operating administrations.
PHMSA has completed these reviews and identified a means to enhance procedures,
reduce redundancies, and increase oversight and accountability.

Data improvement and IT modernization is another high priority, offering the
potential to use enhanced data analysis to strengthen program oversight. The


Appendix. Agency Comments
                                                                                      13


information system that supports the special permits program is at the end of its useful
life and no longer effectively supports the program’s requirements. System
modernization will enable the agency to process applications and synthesize safety
and performance information about companies applying for special permits and
approvals more efficiently. Due to the importance of this initiative, PHMSA
temporarily assigned a senior staff member to serve as a technical advisor, responsible
for planning and executing this action plan.

The effectiveness of the actions taken to address each initiative is being monitored by
a specially designated management team. We consider the initiatives in each plan to
be “living” documents that may be revised based on lessons learned. The team
routinely evaluates whether action items are complete or whether additional revisions
are needed. Senior management reports to the Administrator and to the Deputy
Secretary upon the completion of each item. With the priorities established for the
action plans, and a special team established to ensure that actions taken are effective,
we consider this recommendation to be complete.


4.     Resolve the issue of company fitness and level of safety for existing special
       permits issued to trade associations representing over 5,000 companies by
       requiring those companies to reapply under the new policy guidelines that
       require evaluating a company’s fitness and level of safety.

PHMSA Response

Concur. On August 17, 2009, PHMSA issued a written policy to clarify that special
permits are only granted to members of associations, not to associations. Authority to
perform a transportation activity under the terms of a special permit must be exercised
by the individual business entity that bears responsibility for compliance under the
terms of the special permit. (The policy is at Link to Special Permit and Approval
Policy)

As an interim measure, on September 4, 2009, PHMSA re-issued all special permits
granted to members of associations to specifically indicate that it is the members of
the association who are responsible for compliance with the terms of the special
permit.

PHMSA plans to re-issue all safety permits previously granted to members of
associations through their associations as quickly as resources permit. The Agency
estimates that at least 20,000-30,000 entities will be affected. After May 1, 2010, (the
date by which PHMSA will implement a new on-line application process for special
permits), PHMSA will require all association members granted special permits to
reapply. PHMSA will evaluate each firm’s safety fitness before it re-issues the


Appendix. Agency Comments
                                                                                      14


special permits. The timeframe for completing this process will depend on the
number of entities that elect to reapply and available resources.

Currently, PHMSA processes about 3,000 special permits applications per year.
Utilizing additional resources and the on-line application process will enhance the
Agency’s ability to evaluate special permit applications, but it will likely require at
least two years to evaluate the fitness of those association members that re-apply for
special permits. PHMSA will develop a more specific plan as it receives the
applications.

Concurrently, PHMSA is reviewing the 20 active special permits issued to members
of associations to identify those that should be incorporated into the HMR. Where
appropriate, conversion of such special permits to regulations of general applicability
is a major priority. PHMSA has already initiated two rulemakings to address
association membership special permits related to cargo tank and rail tank car
operations. The cargo tank rulemaking applies to a significant number of special
permit holders. PHMSA expects to issue notices of proposed rulemakings for these
two projects this spring and final rules as quickly thereafter as possible. Additional
rulemakings to incorporate the remaining special permits issued to members of
associations into the HMR will be completed by January of 2012.


5.     Develop a precise definition of what constitutes an applicant’s “fitness” to
       conduct the activity authorized by the special permit or approval. This
       definition should include reviewing an applicant’s safety history –
       incidents and enforcement actions – prior to granting a special permit or
       approval.

PHMSA Response

Concur. PHMSA is working to more clearly define the process and criteria used to
determine the fitness of applicants for special permits or approvals. This action will
be completed by June 1, 2010. The determination of fitness in a complex and variable
transportation operating environment exemplified by the special permits program
requires the expert application of specific criteria concerning a company’s safety
performance together with an overall assessment of the risks inherent in the
operations under consideration, including such factors as hazardous material type,
quantity, and form; the transport mode and routes of operation; and the frequency and
location of the operation.

Together with its safety partners in FMCSA, FRA, FAA, and the USCG, PHMSA
completed a comprehensive review of existing fitness determination processes and
developed a refined process for evaluating fitness, based on identified metrics related


Appendix. Agency Comments
                                                                                      15


to a company’s safety history. Utilizing safety data from several existing sources, the
agencies can now use performance-based measures to evaluate an applicant’s past
safety history and ability to operate under the terms of the special permit as indicated
in its application. PHMSA is working to further fine-tune this process.

Currently, PHMSA conducts fitness reviews of all entities applying for a special
permit or approval using historical data records of incidents and violations. Where
the record appears to be questionable, the company will be required to explain its
record and the actions it has taken to resolve any safety problems, such as additional
training or revisions to operating practices, as a condition of receiving the special
permit or approval. If PHMSA determines that the company is unable to meet safety
fitness requirements, PHMSA will not issue the special permit or approval and may
take action to modify or terminate other special permits or approvals held by the
company. PHMSA will prioritize the monitoring of such a company to assure that it
meets the safety requirements of the special permit. If PHMSA determines that a
company’s safety record represents the risk of significant harm, PHMSA will
terminate a special permit or approval.


6.     Require the Office of Hazardous Materials Technology to conduct and
       prepare complete evaluations that document the level of safety the
       company or individual is proposing is as safe or safer than requirements
       from which the company is seeking relief.

PHMSA Response

Concur. PHMSA developed a new safety evaluation form to document pertinent
information regarding whether a special permit will provide a level of safety that is at
least equivalent to that provided under the HMR. The safety evaluation considers the
risks of the materials to be transported, the type of packaging to be utilized, the mode
of transport to be utilized, the conditions likely to be encountered during
transportation, and pertinent special handling measures or operational requirements.
These factors are all documented on the form. Further, on February 2, 2010, PHMSA
implemented a similar process for consistent and uniform documentation of activities
authorized under an approval. To ensure that the Agency has complete information,
PHMSA is amending its procedural regulations to require applicants to provide
additional data and information concerning the risks of the proposed operations and
the measures to be utilized to address the risks. The Office of Management and
Budget (OMB) must approve the new application requirements under the Paperwork
Reduction Act. OMB approval is expected by December 2010.




Appendix. Agency Comments
                                                                                   16


7.    Establish a partner safety interagency working group to develop a
      uniform process for coordinating special permits, including new, renewal,
      “party-to,” and emergency permits as well as new and renewed approvals.

PHMSA Response

Concur. PHMSA established a working group with its partner safety agencies in
DOT and the U.S. Coast Guard on September 4, 2009. The working group
established specific interagency coordination and concurrence guidelines for special
permit applications. The guidelines (Link to Guidelines) specify that PHMSA will
approve or deny applications only after coordination with the operating
administrations and provide for the operating administrations to notify PHMSA of
any violations of a special permit by the grantee that would call its fitness into
question. The special permits SOPs, implemented October 5, 2009, incorporate
detailed procedures for coordinating special permit applications with the operating
administrations. On February 2, 2010, PHMSA finalized and implemented a similar
process for interagency coordination of approval applications. Therefore, the
necessary actions envisioned by this recommendation are complete.

8.    Include “holders of special permit and approvals” as a priority factor in
      PHMSA’s risk-based oversight approach in targeting companies for
      compliance reviews.

PHMSA Response

Concur. PHMSA’s Office of Hazardous Materials Enforcement has implemented a
national business strategy to prioritize its activities. Activities authorized under
Special Permits and Approvals are targeted as inspection and oversight priorities of
the Office. This national business strategy is available online at (Link to National
Business Strategy). In addition, on September 4, 2009, PHMSA in concert with its
partner operating administrations issued a plan for enhanced enforcement of the terms
of special permits and approvals, utilizing the resources of all the operating
administrations with enforcement responsibility and available data to identify
potential safety problems and target resources. The plan includes inspection
procedures specific to special permit and approval grantees and inspection target
goals. While the compliance reviews will be conducted on a continuous basis, with
the priorities established, action on this recommendation is complete.

9.    Establish timeframes for resolving and implementing long-standing safety
      concerns and periodically measure performance against timeframes.




Appendix. Agency Comments
                                                                                     17


PHMSA Response

Concur. The OIG identified two long-standing safety issues involving special use
bulk explosive vehicles and lithium batteries. PHMSA included a plan for addressing
safety issues associated with special use bulk explosive vehicles as part of the special
permits action plan it implemented August 6, 2009. Adhering to very aggressive
timelines for completion, PHMSA completed safety performance and fitness reviews
of the current special permit holders; performed a risk analysis to ensure the special
permits address all possible safety issues, including the potential for a high-
consequence (catastrophic) accident; and developed additional safety measures to
address identified risks. PHMSA completed its review of these special permits on
September 4, 2009, and issued revised special permits incorporating a number of
enhanced safety requirements on October 5, 2009, resolving this issue.

PHMSA is also taking action to address lithium battery safety. On January 11, 2010,
PHMSA published an NPRM to address comprehensively the safe transport of lithium
cells and batteries. The NPRM represents another step in PHMSA’s continuing
process to ensure the safe transport of lithium batteries and builds on regulations
published in 2004, 2007, and 2009. The rulemaking will strengthen the current
regulatory framework by imposing more effective safeguards, including design
testing, packaging, and hazard communication measures for various types and sizes of
lithium batteries in specific transportation contexts. Several of the proposals are
based on recommendations issued by the National Transportation Safety Board.
PHMSA plans to publish a final rule by December 2010.

With the special use bulk explosive vehicles issue resolved, and a rulemaking in
process for lithium batteries transport in process, timelines have been established for
these issues, and this recommendation is considered closed. More broadly, PHMSA’s
enhanced oversight of the special permits and approvals programs, along with an
enhanced working relationship with its partner agencies, will enable the agency to
quickly identify potential safety issues to better ensure that future issues do not
become long standing issues. In addition, for safety problems identified through
PHMSA’s enhanced monitoring and enforcement efforts, recommendations from the
enforcement staff will be referred to a team of specialists to evaluate and act on the
recommendations within specified timeframes.


10.    Establish a National Task Force to develop standard procedures for
       facilitating the adoption of special permits and approvals into the
       Hazardous Materials Regulations in order to keep the current regulatory
       framework in sync with advanced technologies and business practices.




Appendix. Agency Comments
                                                                                     18


PHMSA Response

Concur in part. PHMSA agrees with the necessity for a regulatory framework that
accommodates advanced technologies and business practices, but is accomplishing
this through alternative means. On February 5, 2010, PHMSA finalized a plan to
establish a systematic process for reviewing outstanding special permits and
incorporating them, where appropriate, into the HMR. As part of this plan PHMSA
has designated a special team to review all currently active special permits – about
1,250 – and identify those that should be incorporated into the HMR. Once the
review of all currently active special permits is completed, expected by mid 2013,
PHMSA will routinely review recently granted special permits each year and will
initiate a rulemaking to propose incorporating them into the HMR as warranted.
PHMSA’s Office of Hazardous Materials Standards is planning to add a unit that will
focus on special permit issues and particularly on incorporation of special permits into
the HMR on a routine basis as appropriate. PHMSA is developing a similar plan for
incorporating the terms of certain approvals into the HMR. In addition, PHMSA
plans to publish periodically a Federal Register notice requesting candidates for
special permits and approvals that should be considered for incorporation into the
HMR.


                                    *      *      *

In closing, we want to emphasize that PHMSA has taken aggressive, comprehensive
and expedited action to address the issues identified by the OIG. Actions have been
completed or are underway to address each and every issue raised in both the special
permits program and the approvals program. We have worked closely with the
Department’s leadership to secure additional staff and budget to continue addressing
these commitments over the long term and further improve an already strong safety
record.



cc: Calvin L. Scovel, Inspector General




Appendix. Agency Comments
                                                                Attachment
                                                               Page 1 of 14



Before the Committee on Transportation and Infrastructure
United States House of Representatives


For Release on Delivery
Expected at               PHMSA’s Process for
                          Granting Special Permits
10:00 a.m. EDT
Thursday
September 10, 2009
CC-2009-096
                          and Approvals for
                          Transporting Hazardous
                          Materials Raises Safety
                          Concerns


                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
                                                                                                         Attachment
                                                                                                        Page 2 of 14

Mr. Chairman, Ranking Member Mica, and Members of the Committee:

We appreciate the opportunity to testify today on safety issues within the Pipeline and
Hazardous Materials Safety Administration’s (PHMSA) Special Permits and
Approvals Program. As you know, special permits and approvals exempt their
holders from certain Federal regulations governing the transport of hazardous
materials. Currently, there are about 5,500 special permit holders 1 and 118,000
approvals.

On July 28, 2009, we issued a management advisory to PHMSA that outlined a
number of concerns. My testimony today will focus on those concerns as well as new
ones identified through our ongoing work. Specifically, (1) shortcomings in the
processes for reviewing and approving special permits and approvals, (2) concerns
with PHMSA’s oversight of permit holders’ compliance with safety requirements, and
(3) long-standing safety issues that remain unaddressed by PHMSA.

In summary, we found that PHMSA grants special permits and approvals without
exercising its regulatory authority to review applicants’ safety histories and without
coordinating with partner safety agencies. Despite these weaknesses, PHMSA does
not target individuals and companies that hold special permits and approvals for
safety compliance reviews. These issues—along with safety concerns previously
raised by our office, the Federal Aviation Administration (FAA), and the National
Transportation Safety Board (NTSB)—call into question the effectiveness of
PHMSA’s process for granting special permits and approvals.

We want to recognize Secretary LaHood and Deputy Secretary Porcari for their
leadership in directing PHMSA to formalize an action plan addressing these and other
concerns regarding the Special Permits and Approvals Program.




1
    There are now about 1,250 active special permits. The 5,500 referenced above include these plus all party-to permits.
                                                                                                          Attachment
                                                                                                         Page 3 of 14

BACKGROUND
PHMSA is the lead agency responsible for regulating the safe transport of hazardous
materials, including explosive, poisonous, corrosive, flammable, and radioactive
substances. 2 PHMSA regulates up to 1 million daily movements of hazardous
materials, totaling up to 20 percent of all freight tonnage shipped each year in the
United States. The FAA, Federal Motor Carrier Safety Administration (FMCSA), and
Federal Railroad Administration (FRA) also oversee and enforce regulations for their
respective industries.

Many hazardous materials are transported under the terms and conditions of special
permits and approvals. 3 Special permits and approvals allow a company or individual
to transport, package, or ship hazardous materials in a manner that varies from the
regulations, provided they meet two key criteria for authorization:

    • the company or individual is fit to conduct the activity authorized by the special
      permit or approval and
    • the level of safety the company or individual is proposing is as safe as or safer
      than requirements from which the company is seeking relief.

Obtaining a special permit or approval allows a company to use technological
innovations in transporting hazardous materials—improvements that have emerged
since the regulations were first promulgated. Requests for special permits and
approvals generally include “new,” “renewals,” and “party-to” applications (a party-to
application applies only to special permits and is a request to “piggy-back” on a new
or existing permit). New special permits may be authorized for up to 2 years, at
which time they may be renewed for a period of up to 4 years. 4 Emergency special
permits must be submitted directly to the affected Operating Administration, which
evaluates and confirms the emergency, recommends any conditions for inclusion in
the permit, then forwards its review to PHMSA. The exhibit to this statement
describes the process requirements for special permit and approval applications.

PHMSA DOES NOT PROVIDE ADEQUATE REVIEWS OF
APPLICATIONS FOR SPECIAL PERMITS AND APPROVALS
PHMSA does not review applicants’ incident and enforcement histories—critical
factors in assessing fitness—before authorizing special permits and approvals for
individuals, businesses, and trade associations. We also found that PHMSA has
granted special permits and approvals even though its reviews of requests do not

2
    Hazardous Materials Regulations, 49 C.F.R. § 171-180 (2009).
3
    Special permits authorize a holder to vary from specific provisions of the Hazardous Materials Regulations; identify the
    section(s) from which relief is provided; and include provisions, conditions, and terms that must be followed in order for
    the special permit to be valid. An approval means written consent from PHMSA’s Associate Administrator to perform a
    function that requires prior consent under the Hazardous Materials Regulations.
4
    The 4-year renewal period was authorized under SAFETEA-LU, Pub. L. No. 109-59 (2005).
                                                                                                            Attachment
                                                                                                           Page 4 of 14

always demonstrate that applicants will provide a level of safety equal to the
regulations from which they seek relief. In addition, PHMSA does not sufficiently
coordinate with other agencies that are involved in overseeing the transport of
hazardous materials before issuing a special permit or approval.

PHMSA Does Not Consider Applicants’ Safety Histories When
Determining Fitness for Special Permits and Approvals
Hazardous Materials Regulations provide PHMSA the authority to review an
applicant’s safety history when assessing the applicant’s fitness for a special permit or
approval. 5 PHMSA’s reviews, however, solely examine the safety of the requested
action, process, or package—not the applicant’s prior incidents or enforcement
violations. According to PHMSA officials, applicants’ incident and compliance
histories have no bearing on their ability to safely carry hazardous materials—a safety
issue we highlighted in our July 2009 management advisory. Specifically, we found
that PHMSA had granted 1 company a special permit to operate bulk explosives
vehicles, 6 despite the fact that over the last 10 years the company had 53 incidents—
12 of which were serious with 9 of those involving vehicle rollovers—and
22 violations issued by PHMSA’s or FMCSA’s enforcement office. 7

In addition, our ongoing review found no instances where PHMSA considered
applicants’ safety histories. However, our assessment of 99 non-emergency special
permits found that 26 of those holders (26 percent) had at least 5 incidents or
violations over the 10-year period preceding PHMSA’s grant of the permit. For
8 (about 31 percent) of these 26 permits, each applicant had at least 100 incidents,
some of which were serious. For example, 1 company was granted a special permit in
September 2004 despite having 321 prior incidents and 5 prior enforcement
violations. Further, the company’s permit was renewed 2 years later despite having
an additional 26 incidents and 5 enforcement violations.

We also found that PHMSA granted special permits to 12 trade associations—
effectively a “blanket authorization” for about 5,000 member companies. PHMSA
granted these permits without verifying member companies’ fitness to carry out the
terms and conditions of the permit. PHMSA also did not determine whether permits
were needed or used, whether companies actually existed or provided accurate
information about themselves, or whether they were even aware that they had a permit

5
    49 C.F.R. § 107.113f (5) (2009). The regulations state that the Associate Administrator may grant an application upon
    finding that, among other things, the applicant is fit to conduct the activity authorized by the exemption or special permit.
    This assessment may be based on information in the application, prior compliance history of the applicant, and other
    information available to the Associate Administrator.
6
    Permit holders are authorized to transport certain explosives, oxidizers, corrosive and combustible liquids, and blasting
    caps on the same truck.
7
    An incident generally involves the unintentional release of a hazardous substance or discovery of an undeclared hazardous
    material. PHMSA defines serious incidents as those incidents involving fatalities, serious injuries, closure of a major
    transportation artery, evacuations of 25 or more people, and hazardous materials releases of greater than 119 gallons or
    882 pounds.
                                                                                                     Attachment
                                                                                                    Page 5 of 14

to abide by. For example, we visited 18 companies that were members of 7 of the
12 associations and found that:

     • 3 of the 4 companies using an association-granted permit had compliance issues,
       including deficiencies with shipping papers, training requirements, certificates of
       registration, and security plans. In fact, at two facilities, the companies were
       unaware that a special permit applied to the function they were performing and so
       they were not meeting the terms and conditions of that permit. One of the
       companies explained they were recently made aware of the applicable permit after
       the trade association warned them of a possible investigation into permit
       compliance by DOT Office of Inspector General auditors.

     • 4 companies did not reside at the address provided by their association (currently,
       the terms of the permit do not require trade associations to notify PHMSA of any
       changes with its member companies); and

     • 10 had no reason to use their industry association’s permit because they did not
       perform the activity for which the permit was granted.

Finally, PHMSA also granted approvals to applicants without examining their safety
histories. Of the 56 approvals that we reviewed, 8 5 were granted to applicants with
prior safety incidents and violations, ranging from 6 incidents and 1 violation to
178 incidents and 23 violations.

PHMSA Has Granted Special Permits and Approvals Without Support for
an Equal Level of Safety and Has Overlooked Incomplete Applications
PHMSA has granted special permits and approvals without sufficient data and
analyses to confirm that the applicants’ proposed level of safety is at least equal to
what is called for in the Hazardous Materials Regulations.             We reviewed
99 non-emergency special permits and found that for nearly 65 percent (8 new,
37 renewals, and 19 party-to status) 9 PHMSA’s evaluations 10 were either incomplete,
lacking evidence to support that the applicant demonstrated an equal level of safety,
or simply nonexistent. Of particular concern is the lack of supporting documentation
for renewal and party-to permits, which are based on evaluations PHMSA may have
performed several years earlier when assessing the original (new) special permit
application. According to PHMSA officials, some of this information was lost when
the Office of Hazardous Materials Safety migrated to a new information system and
decided to transfer the most current special permit but not the historical records.

8
     We sampled a total of 68 approvals, 12 of which were denied, reducing our sample to 56.
9
     We sampled 62 new special permits, of which 16 were granted emergency status and 6 were denied, reducing our sample
     to 40 new special permits. We also reviewed a sample of 39 renewals, 1 of which was denied, reducing our sample to
     38 renewals. Our sample also included 21 party-to permits.
10
     PHMSA’s evaluations are generally performed by chemists, general and mechanical engineers, physicists, and physical
     science experts in PHMSA’s Hazardous Materials Technology Office.
                                                                                           Attachment
                                                                                          Page 6 of 14

Despite this lack of original information, PHMSA opted to renew permits or grant
party-to status without conducting a new evaluation. Further, there was still
information missing for the eight new permits—information needed to support an
equal level of safety.

Evidence of an equal level of safety to support emergency special permits and
approvals was similarly lacking:

  • PHMSA’s evaluations for 8 of the 16 (50 percent) emergency special permit
    applications we reviewed were either incomplete, not reviewed by PHMSA’s
    technical staff, lacked a conclusion that an equal level of safety was demonstrated,
    or were not performed.
  • Each of the 56 approval applications we reviewed lacked evaluation
    documentation by PHMSA to indicate how an equal level of safety was reached.

In addition, PHMSA is not holding applicants accountable for providing required
information, as it has granted new permits and renewals to applicants who did not:

  • provide relevant shipping and incident experience,
  • demonstrate that a special permit achieves a level of safety at least equal to that
    required by regulation, and
  • certify—for renewals—that the original application remains accurate and
    complete.

Within the 99 non-emergency permits we reviewed, we sampled 40 applications for
new permits and 38 applications for renewals. The table below shows that for most of
these, required information was either not provided by applicants or not validated by
PHMSA.
               Table. Insufficient Information on Special Permit Applications
   Permit Type         Shipping/Incident       Shipping/Incident       Equal Level of      Accuracy and
                          Experience            Experience Not          Safety Not         Completion of
                           Missing               Validated by           Supported             Original
                                                   PHMSA                                    Application
                                                                                           Not Supported
New                              18                       19                  5                 N/A
Renewal                           1                       37                N/A                  7
  Total Problems
                                 19                       56                  5                    7
   Found
Note: We did not examine what applicants provided for the 21 party-to permits since they generally provide
limited information, given that they receive their permit based on PHMSA’s evaluation of the original permit
holder’s application.

We also looked at applications for emergency permits, which require applicants to
provide specific support to justify emergency processing. However, 3 of the
                                                                          Attachment
                                                                         Page 7 of 14

16 applicants (or about 19 percent) we reviewed who were granted emergency permits
did not provide such support.

PHMSA Grants Special Permits and Approvals With Little or No Input
from Partner Safety Agencies
While PHMSA is not required to coordinate with Operating Administrations before
authorizing a non-emergency special permit or approval, the exchange of information
among safety stakeholders, especially those with oversight and enforcement
responsibilities, is fundamental to safety. According to officials we spoke with,
coordination between PHMSA and FAA, FRA, and FMCSA mainly consists of
informal e-mails and phone conversations.

Based on our review of 99 non-emergency special permits, we found no evidence that
PHMSA coordinated with the affected Operating Administration in granting 36 of
40 (90 percent) new permits, all 38 renewals, and 19 of 21 (about 90 percent) party-to
permits we sampled. Coordination with partner safety agencies prior to granting
renewal and party-to permits is especially critical so they can ensure these applicants
are still fit to conduct the authorized activity and that their proposed level of safety
meets or exceeds the safety level required by the Hazardous Materials Regulations.
Authorizing special permits that have not been fully vetted could ultimately lead to
unsafe transportation of hazardous materials. Twelve of the 36 new permits that were
not coordinated allowed transport by air (passenger and/or cargo), a particularly
vulnerable transportation method if an incident were to occur.

FAA has also expressed dissatisfaction that PHMSA does not provide sufficient and
consistent documentation upon which FAA can base its evaluation of the special
permit or approval terms and conditions. For example, in 2008, PHMSA coordinated
an emergency special permit application to transport by cargo aircraft several
hazardous materials contained in spacecraft parts and components. The items
included lithium batteries in a package that exceeded size parameters and a poisonous
gas contained in pipes, which is normally prohibited by the Hazardous Materials
Regulations for shipment by air. According to FAA, the request did not provide any
additional safety measures for the pilots, and PHMSA did not include an explanation
of how an equal level of safety would be met.

This example also illustrates the importance of coordination for emergency special
permits, which is required by regulations. 11 Unlike non-emergency special permits,
emergency special permits must be submitted directly to the affected Operating
Administration, which evaluates and confirms the emergency, recommends any
conditions for inclusion in the permit, then forwards its review to PHMSA. However,
in 13 of the 16 emergency applications we reviewed, the applications went directly to
PHMSA and were not coordinated with the affected Operating Administration.
11
     49 C.F.R. § 107.117(d) (2009).
                                                                                                 Attachment
                                                                                                Page 8 of 14

PHMSA also failed to publish 11 emergency permits in the Federal Register within
90 days of issuance as required by law for public safety and stakeholder notification.

The lack of coordination between PHMSA and FMCSA is also disconcerting, given
that special permits for use of “bulk explosive” vehicles continue to be approved
despite their number of serious incidents and violations—a key issue highlighted in
our July management advisory to PHMSA. For the period October 2005 to July 2008,
bulk explosives vehicles have experienced 14 serious incidents, 11 of which involved
vehicle rollovers.

We also reviewed 56 approvals and found that none were coordinated with the
affected Operating Administration. According to PHMSA, most approvals (e.g.,
explosive classifications, fireworks classifications, and retesters of cylinders) are
mode-neutral and do not require coordination. We agree that not every approval
needs to be coordinated, but certain approvals should be, especially those that provide
exceptions from regulatory requirements or prohibitions, such as authorizations to
transport lithium batteries in quantities greater than 77 pounds (anything under this
weight does not require PHMSA approval). Our work underscores the importance of
PHMSA and the affected Operating Administration jointly developing and
implementing a Memorandum of Agreement on the type of approval requests that will
be coordinated. This would provide each agency with an opportunity to share their
knowledge about the party seeking an alternative method of compliance to the
requirements in the Hazardous Materials Regulations.

PHMSA DOES NOT CONDUCT REGULAR COMPLIANCE REVIEWS
OF INDIVIDUALS AND COMPANIES THAT HAVE BEEN GRANTED
SPECIAL PERMITS AND APPROVALS
PHMSA’s risk-based oversight approach considers three priority factors when
selecting individuals and companies that transport hazardous materials for safety
compliance reviews: accident investigations, third-party complaint investigations, and
fitness inspections. 12 Conducting compliance reviews of special permit and approval
holders is not considered a priority, even though PHMSA states it holds companies
with special permits and approvals to a higher standard of compliance than non-
permit holders. PHMSA contends that this does not need to be incorporated in its
risk-based oversight criteria because special permit holders have demonstrated better
compliance over the last 10 years than non-permit holders.

Our visits to 27 companies indicate otherwise. Sixteen of these companies
(59 percent) held 91 special permits. We found that all 16 were not complying with
various terms and conditions of 56 (62 percent) of the permits, such as training,
shipping, and signage requirements. For example, one company failed to post a
12
     Fitness inspections are usually referred from PHMSA’s Office of Special Permits and Approvals to its Office of
     Hazardous Materials Enforcement (OHME).
                                                                                              Attachment
                                                                                             Page 9 of 14

required sign on a vehicle that read “Warning, trailer may contain chemical vapor.
Do not enter until vapors have dissipated.” Officials from five companies were
unaware of which special permits applied to their location, and two facility officials
seemed confused as to what a special permit was and made several calls to their
corporate office or manager to obtain clarification on their permit use.

We are particularly concerned about these weaknesses with regard to the many
companies whose operations depend on special permits and approvals and those
companies operating multiple permits, approvals, or both. For example, we identified
16 companies that each had 20 or more special permits, 7 companies that each had 30
or more special permits, and 1 company that had 65 special permits. 13 Omission of
the priority factor, “holder of special permit and approval” from PHMSA’s risk-based
oversight criteria means it cannot increase oversight for those companies that may not
be providing an equal or higher level of safety as specified by the terms of the permit
and the Hazardous Materials Regulations.

LONG-STANDING SAFETY CONCERNS HAVE LARGELY GONE
UNADDRESSED BY PHMSA
Safety concerns associated with bulk explosive trucks were raised to PHMSA more
than 2 years ago but have only recently received attention. Although PHMSA formed
an advisory group primarily comprised of industry representatives, the group did not
produce actionable solutions to these vulnerabilities. Our recent management
advisory to PHMSA brought this issue to the attention of the highest levels of the
Department. In response to our advisory, PHMSA developed an action plan
addressing our concerns related to specialized bulk explosive truck operations, as well
as other issues found with the special permits program in general. We intend to
monitor PHMSA’s progress on this issue as this is not the first time identified safety
concerns have gone largely unaddressed.

Safety Concerns Associated With Certain Bulk Explosives Special
Permits Have Only Recently Received Attention
In June 2007, PHMSA’s Chief of the Office of Hazardous Materials Enforcement
(OHME), Central Region, sent a letter to the Director of the Special Permits and
Approvals Office citing specific problems and risks associated with vehicles traveling
under two special permits. The letter described the results of a PHMSA investigation
of a rollover incident where the vehicle’s tanks had ruptured and the different
hazardous materials had mixed, creating the potential for a catastrophic event. As a
precaution, the local fire department evacuated all areas within a 1.5-mile radius of
the incident—1 mile beyond the emergency response handbook requirement.
The two special permits in question—11579 and 12677—allow permit holders to
transport certain explosives, oxidizers, corrosive and combustible liquids, and blasting
13
     We excluded the Department of Defense as a holder of special permits in our analysis.
                                                                           Attachment
                                                                         Page 10 of 14

caps all on the same truck. While this practice is prohibited by the Hazardous
Materials Regulations, permit holders are exempted from these requirements if they
can show that their method of transport meets or exceeds the level of safety specified
in the regulations and that they are fit to conduct the activity authorized by the permit.
OHME made a series of recommendations, one of which requires all operators of
vehicles with multi-hazard special permit authorizations to receive additional safety
training that specifically addresses vehicle susceptibility to rollovers.
In May 2008, nearly a year after receiving OHME’s letter, PHMSA formed an
advisory group, comprised of DOT and industry representatives, which met and
discussed several issues. These included vehicle rollover prevention, training for
drivers of these vehicles, improved battery protection or relocation, and ways to
minimize circumstances that would cause a fire in a rollover spill. We first raised our
concerns about the number of incidents and violations associated with these special
permits in January 2009. At that time, PHMSA officials told us that the advisory
group was looking into this matter. In March 2009, the group met again, and the
Institute of Makers of Explosives representatives presented recommendations for the
increased safety of the vehicles operated under the special permits. At both meetings,
OHME’s recommendations were not pursued and no clear course of action was
determined except that another meeting in the near future would be beneficial.

Long-Standing Safety Concerns Regarding Special Permits To Ship
Lithium Batteries Have Not Been Addressed
In 1999, a pallet of lithium batteries caught fire while being handled between flights
at Los Angeles International Airport. Following this incident, FAA raised safety
concerns involving life-threatening accidents with the air transport of bulk shipments
of lithium batteries. Further, the NTSB’s investigation of this incident revealed that
these batteries presented an unacceptable safety risk to aircraft and passengers. The
NTSB made a series of recommendations, including that packages containing lithium
batteries be identified and shipped as hazardous materials when shipped on aircraft.

During our 2003 through 2004 review of FAA’s Hazardous Materials Safety Program,
two serious incidents involving the shipment of lithium batteries occurred. In one of
these incidents, which occurred in August 2004, a shipment of lithium batteries
caught fire on a ramp of a major all-cargo carrier at Memphis International Airport.
According to the shipping documents, the battery package was shipped under a
PHMSA approval; however the materials were not packaged according to the terms of
the approval, and the approval was never coordinated with FAA. Our November
2004 report ultimately concluded that discussions between FAA and PHMSA (known
as the Research and Special Programs Administration at the time) on the safe
                                                                                         Attachment
                                                                                       Page 11 of 14

transport of lithium batteries and other issues on rules governing air shipments of
hazardous materials had been ongoing for 5 years without any effective resolution. 14

We reported that serious efforts to resolve these issues were only undertaken after the
August 2004 incident; high-level Departmental attention; and issuance of FAA’s
technical report, which concluded that lithium batteries pose a unique threat in the
cargo compartment of an aircraft because lithium fires cannot be extinguished by
FAA’s certified fire suppressant system. We made a number of recommendations to
address these unique safety requirements. The Assistant Secretary for Transportation
Policy concurred, stating that the Department “anticipate[s] having a process
formalized by February 2005” to resolve such disputes between Operating
Administrations. However, the Department has yet to implement such a policy.

In December 2004, the Department issued an interim final rule on the safe handling
and shipping of lithium batteries by air. This rule was finalized in August 2007 and
subsequently amended in January 2009. Both amendments mandated additional
safety requirements to address FAA’s concerns and the NTSB’s safety
recommendations. However, not all of FAA’s and NTSB’s concerns have been
resolved. Currently, PHMSA, in consultation with FAA, is proposing changes to the
January 2009 rule to include that all lithium batteries be designed to withstand normal
transportation conditions and packaged to both reduce potential damage that could
lead to a catastrophic incident and minimize the consequences of an incident. At the
core of the current debate is the Air Line Pilots Association’s perspective that
shipment of lithium batteries by air should be strictly prohibited until new regulations
are in place to ensure the safe transport of hazardous materials. The Department must
be vigilant in resolving this issue, as incidents involving shipments of lithium
batteries continue to occur, with eight incidents in 2008—two of which were life-
threatening—and six so far in 2009. The most recent of these include a burnt lithium
battery package discovered on an aircraft at Honolulu International Airport on
June 18, 2009, and another package that caught fire on a flight to St. Paul
International Airport on August 14, 2009.

OIG Management Advisory Presses PHMSA To Immediately Address
Safety Concerns
On July 28, 2009, we issued a management advisory to PHMSA outlining concerns
with weaknesses we have identified thus far with the special permit process. In short,
our work shows that immediate attention is needed to prevent unsafe packaging and
transport of explosives and explosive components traveling under Department of
Transportation Special Permit Numbers 8554, 11579, and 12677.



14
     OIG Report Number SC-2005-015, “New Approaches Needed in Managing FAA’s Hazardous Materials Program,”
     November 19, 2004. OIG reports are available on our website: www.oig.dot.gov.
                                                                       Attachment
                                                                     Page 12 of 14

PHMSA’s August 6, 2009, response to our advisory outlines its plans to address these
identified issues:

 • Special permits issued to trade associations – permits to be issued to member
   companies only, not to the associations.

 • Safety documentation evaluations – revise policy and procedures to ensure that an
   “equivalent level of safety” determination is met and fully supported.

 • Applicant fitness – revise policy and procedures to ensure that fitness
   determinations are well-founded and fully supported.

 • Formally develop standard operating policies and procedures for the special
   permits program.

PHMSA’s planned actions addressed some, but not all, of OHME’s June 2007
recommendations. One such action is to develop a pilot project for installing
electronic stability control systems on bulk explosive vehicles to prevent rollovers.
However, PHMSA still needs to address OHME’s remaining safety concerns. We
will continue to monitor PHMSA’s progress as it begins establishing implementation
priorities in these areas and means to measure effectiveness.

CONCLUSION
Regulating and monitoring the movement of hazardous materials is a critical part of
ensuring the safety of the Nation’s transportation system, and it is PHMSA’s role to
properly assess all risks before allowing applicants to participate in commerce under
special permits and approvals. However, a number of longstanding and new issues
call into question the effectiveness of PHMSA’s Special Permits and Approvals
Program. The sheer number of active special permits and approvals alone—many
dating back 10 years or more—underscores the need to reexamine the strategy for
adopting special permits and approvals into the Hazardous Materials Regulations to
keep the current regulatory framework in sync with today’s operating environment.
As PHMSA addresses these areas, it must re-focus its approach to proactively identify
safety risks, work with partner safety agencies to resolve safety and practicality
matters, and set targeted oversight priorities.

This concludes my statement, Mr. Chairman. I would be happy to answer any
questions that you or other Members of the Committee may have.
                                                                                                     Attachment
                                                                                                   Page 13 of 14



  EXHIBIT. PROCESS REQUIREMENTS FOR SPECIAL PERMIT AND
  APPROVAL APPLICATIONS

Table A. Process Requirements for Special Permit Applicants and PHMSA
     What Applicants Must Provide                                 How PHMSA Processes the Request
New Permits
• identification/agent information                           • enter application into HMIS
                                                                                              \a


• citation of regulation relieved from                       • submit to Technical Office if needed
                                                                                                    \b


• proposed mode of transport                                 • 30-day period: determine conformity to
• all supporting documents (e.g., test results and            requirements and accept or reject
 drawings)                                                   • evaluate equivalent level of safety
• demonstration of equal level of safety                     • assess fitness of applicant to conduct the activity
• all relevant shipping and incident experience               authorized
                                                             • publish notice in Fed. Register
                                                             • 15-day period: out for comments
                                                             • draft permit with justification
Renewal Permits
• identification/agent information                           • 15-day period: determine completeness/conformity
• permit number for renewal                                  • verify timely receipt and enter into HMIS
• certification that original application remains            • draft authorization letter for signature
 accurate and complete
• all relevant shipping and incident experience
Party-To Permits
• identification/agent information                           • 30-day period: determine completeness/conformity
• permit number seeking to join                              • evaluate equivalent level of safety
• demonstration of equal level of safety                     • assess fitness of applicant to conduct the activity
                                                              authorized
                                                             • verify “party-to” status not previously
                                                               granted
                                                             • draft authorization letter for signature
Emergency Permits
• facts showing necessity to prevent injury,                 • determine necessity to prevent injury, support
  support national security, or prevent economic               national security, or prevent economic loss
  loss                                                       • publish in Fed. Register within 90 days
• the application to the DOT modal official for the
  initial mode of transportation to be utilized.
  \a Hazardous Materials Information System (HMIS)
  \b If non-technical, the application is assigned to a non-technical Special Permit Specialist.




  Exhibit. Process Requirements for Special Permit and Ap proval
  Applications
                                                                                            Attachment
                                                                                          Page 14 of 14

    Table B. Process Requirements for Approval Applicants and PHMSA
     What Applicants Must Provide                           How PHMSA Processes the Request
New Approvals
• identification/agent information                     • enter application into NetFYI Information
• section of regulation under which                      Management System
 application is made                                   • submit to Technical Office if needed
• description of the activity for which the approval   • evaluate equivalent level of safety
  is required                                          • assess fitness of applicant to conduct the activity
• proposed mode of transit                              authorized
• all supporting documents (e.g., any additional       • draft authorization letter
  information specified in the section containing
  the approval, test results, drawings, and any
  required reports)

 Examples include classifications of explosives
 and fireworks, cylinder retesters, and
 manufacturers of cylinders

For an approval that provides exceptions to
the regulations, additional information is
required:

• demonstration of equal level of safety
• identification of any increased risk to safety or
  property



Renewal Approvals
• identification/agent information                     • determine completeness
• for approvals with expiration dates: renewals        • draft authorization letter for signature
 must be filed in same manner as original
 application
• approval number for renewal




  Exhibit. Process Requirements for Special Permit and Ap proval
  Applications
